CERTIFICATE OF SERVICE
No. 20-280
George Georgiou,
Petitioner,
v.
United States,
Respondent.
I, Jeffrey T. Green, do hereby certify that, on this fifth day of October, 2020, I
caused a copy and an electronic copy of the Brief of the National Association of
Criminal Defense Lawyers as Amicus Curiae in Support of Petitioner in the
foregoing case to be served by first class mail, postage prepaid, and by email, on the
following parties:
PETER GOLDBERGER
50 Rittenhouse Place
Ardmore, PA 19003
peter.goldberger@verizon.net
(610) 649-8200
Counsel for Petitioner

JEFFREY B. WALL
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
SupremeCtBriefs@USDOJ.gov
(202) 514-2217
Counsel for Respondent
/s/ Jeffrey T. Green
JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20009
(202) 736-8000

